   DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                       Office of Audit Services, Region VII
                                                                       601 East 12th Street, Room 0429
                                                                       Kansas City, MO 64106



February 11, 2011

Report Number: A-07-10-03149

Mr. Charles M. Palmer
Director
Iowa Department of Human Services
Hoover State Office Building, Fifth Floor
1305 East Walnut Street
Des Moines, IA 50319-0114

Dear Mr. Palmer:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Excluded Providers in Iowa. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Dan Bittner, Audit Manager, at (515) 284-4674, extension 23, or
through email at Dan.Bittner@oig.hhs.gov. Please refer to report number A-07-10-03149 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




       REVIEW OF MEDICAID
       EXCLUDED PROVIDERS
            IN IOWA




                         Daniel R. Levinson
                          Inspector General

                           February 2011
                           A-07-10-03149
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

CMS reimburses State Medicaid agencies based on the Federal medical assistance percentage for
claimed Medicaid expenditures, including Medicaid expenditures for items and services
furnished, ordered, or prescribed by providers enrolled in the State’s Medicaid program.

The U.S. Department of Health & Human Services, Office of Inspector General (OIG), under
Congressional mandate, established a program to exclude individuals and entities affected by
various legal authorities contained in sections 1128 and 1128A of the Act. The effect of an
exclusion (not being able to participate) is that no payment will be made by the Medicaid
program for any items and services furnished, ordered, or prescribed by an excluded individual
or entity. This payment prohibition applies to the excluded person, anyone who employs or
contracts with the excluded person, any hospital or other provider where the excluded person
provides services, and anyone else. The exclusion applies regardless of who submits the claims
and applies to all administrative and management services furnished by the excluded person.
There is a limited exception to exclusions for the provision of certain emergency items or
services not provided in a hospital emergency room.

In Iowa, the Department of Human Services (State agency) administers the Medicaid program, in
part by developing and maintaining internal controls. The State agency is responsible for
enrolling new providers and maintaining provider records for all Iowa Medicaid provider types.
Billing providers file Medicaid claims with the State agency.

OBJECTIVE

Our objective was to determine whether the State agency’s internal controls were adequate to
prevent Medicaid payments for any items and services furnished, ordered, or prescribed by an
excluded individual or entity for the period January 1, 2006, through December 31, 2008.

SUMMARY OF FINDINGS

The State agency did not have adequate internal controls to prevent some Medicaid payments for
items and services furnished, ordered, or prescribed by an excluded individual or entity.
Specifically, for the period January 1, 2006, through December 31, 2008, the State agency made
$72,930 ($45,215 Federal share) in improper payments, which included:




                                             i
   •   $51,808 ($32,070 Federal share) for drugs prescribed by excluded providers and

   •   $21,122 ($13,145 Federal share) for items and services provided by excluded providers.

The State agency’s policies and procedures did not make provisions to prevent improper
Medicaid payments for drugs prescribed by excluded providers because the State believed that
these claims were allowable. On the basis of this belief, the State agency did not put internal
controls in place to prevent drugs that were prescribed by excluded providers from being claimed
for Federal reimbursement.

In addition, during the period of this review the State agency did not have adequate written
policies and procedures to prevent improper Medicaid payments for items and services from
excluded providers. Subsequent to the period of our review, the State agency developed and
implemented written policies and procedures to identify and reject these claims and to prevent
improper payments.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $45,215 to the Federal Government for the improper Medicaid payments for items
       and services provided or prescribed by excluded individuals; and

   •   strengthen internal controls to prevent excluded providers from participating in the
       Medicaid program, specifically by developing and implementing policies and procedures
       to ensure that payments are not made for any items and services furnished, ordered, or
       prescribed by an excluded individual or entity.

STATE AGENCY COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency concurred with our recommendations
and described corrective actions that it had implemented or planned to implement. We did not
verify the corrective actions.

The State agency’s comments are included in their entirety as the Appendix.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Medicaid Program ....................................................................................................1
              Excluded Providers ..................................................................................................1
              Iowa Medicaid Program ...........................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................2
               Objective ..................................................................................................................2
               Scope .......................................................................................................................2
               Methodology ...........................................................................................................3

FINDINGS AND RECOMMENDATIONS ................................................................................4

          IMPROPERLY CLAIMED DRUGS PRESCRIBED BY EXCLUDED PROVIDERS .....4

          IMPROPERLY CLAIMED ITEMS AND SERVICES PROVIDED
               BY EXCLUDED PROVIDERS ..............................................................................5

          RECOMMENDATIONS .....................................................................................................6

          STATE AGENCY COMMENTS AND OFFICE OF
               INSPECTOR GENERAL RESPONSE ...................................................................6

APPENDIX

          STATE AGENCY COMMENTS




                                                                 iii
                                      INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

CMS reimburses State Medicaid agencies based on the Federal medical assistance percentage for
claimed Medicaid expenditures, including Medicaid expenditures for items and services
furnished, ordered, or prescribed by providers enrolled in the State’s Medicaid program.

Excluded Providers

The U.S. Department of Health & Human Services, Office of Inspector General (OIG), under
Congressional mandate, established a program to exclude individuals and entities affected by
various legal authorities contained in sections 1128 and 1128A of the Act. The effect of an
exclusion (not being able to participate) is that no payment will be made by the Medicaid
program for any items and services furnished, ordered, or prescribed by an excluded individual
or entity. This payment prohibition applies to the excluded person, anyone who employs or
contracts with the excluded person, any hospital or other provider where the excluded person
provides services, and anyone else. The exclusion applies regardless of who submits the claims
and applies to all administrative and management services furnished by the excluded person.
There is a limited exception to exclusions for the provision of certain emergency items or
services not provided in a hospital emergency room.

Federal regulations at 42 CFR § 1001 specify certain bases upon which OIG may, or in some
cases must, exclude individuals and entities from participation in Medicaid and other Federal
health care programs. Federal regulations at 42 CFR § 1002 specify the authority of State
agencies to exclude individuals and entities from participation in their respective Medicaid
programs.

To administer this program, OIG maintains a database of all currently excluded parties called the
List of Excluded Individuals/Entities (LEIE). In addition, CMS maintains a database called the
Medicare Exclusion Database (MED). Pursuant to a CMS State Medicaid Directors Letter dated
June 12, 2008, States should conduct searches monthly via the LEIE or the MED to capture
exclusions and reinstatements that have occurred since the last search.




                                                1
List of Excluded Individuals/Entities

The LEIE is a database that provides information about parties excluded from participation in
Medicare, Medicaid, and all other Federal health care programs. The LEIE is available on the
OIG’s website in two formats: an online search engine and a downloadable version of the
database. The online search engine identifies currently excluded individuals and entities. When
a match is identified, it is possible for the searcher to verify the accuracy of the match using the
Social Security Number (SSN) or Employer Identification Number (EIN). The downloadable
version of the database may also be compared against State agency provider enrollment files.
However, unlike the online search engine, the downloadable version of the database does not
contain SSNs or EINs.

Medicare Exclusion Database

In 2002, CMS developed the MED to collect and retrieve information that aided in ensuring that
no payments are made to excluded individuals and entities for services furnished during a
provider’s exclusion period. Two of the information sources used in populating the MED are the
LEIE and the Social Security Administration. MED files contain a variety of identifiable and
general information including name, SSN, EIN, and National Provider Identifier (NPI). CMS
provides the MED files to State Medicaid agencies every month.

Iowa Medicaid Program

In Iowa, the Department of Human Services (State agency) administers the Medicaid program, in
part by developing and maintaining internal controls. The State agency is responsible for
enrolling new providers and maintaining provider records for all Iowa Medicaid provider types.
Billing providers file Medicaid claims with the State agency.

The State agency contracts with Iowa Medicaid Enterprise (IME) to maintain its Medicaid
Management Information System (MMIS), a computerized payment and information reporting
system that processes Iowa’s Medicaid claims. The State agency retains overall responsibility
for developing and maintaining internal controls to help administer the Medicaid program. The
State agency uses both the LEIE and the MED to help administer the State’s Medicaid program.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s internal controls were adequate to
prevent Medicaid payments for any items and services furnished, ordered, or prescribed by an
excluded individual or entity for the period January 1, 2006, through December 31, 2008.

Scope

We reviewed Medicaid claim line items processed by the State agency with dates of services
from January 1, 2006, through December 31, 2008. We did not review the overall internal
control structure of the State agency or the Medicaid program because our objective did not


                                                 2
require us to do so. Rather, we reviewed only the internal controls that pertained to our
objective.

We performed fieldwork at the State agency in Des Moines, Iowa, from March to August 2010.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   held discussions with State agency officials to gain an understanding of State agency
        policies, procedures, and guidance;

    •   obtained the LEIE (as of May 31, 2009) and MED (as of April 2010) databases;

    •   obtained the State agency’s Medicaid provider database;

    •   matched the MED 1 to the State agency’s Medicaid provider database using the provider’s
        SSN, NPI, UPIN, or business name and address;

    •   obtained the Medicaid line items (for the Medicaid providers that matched to the MED)
        for claims that were processed by the State agency with dates of services from
        January 1, 2006, through December 31, 2008;

    •   obtained and reviewed the supporting documentation for each claim the State agency had
        adjusted;

    •   calculated the Medicaid payments that were made during that provider’s exclusion period
        by the State agency;

    •   determined whether any of the excluded providers involved in the Medicaid payments
        had been granted waivers of their exclusion by OIG; and

    •   discussed our findings with State agency officials on October 18, 2010.

We calculated the Federal share of the expenditures using the lowest Federal medical assistance
percentage (61.73 percent to 68.82 percent) applicable for each quarter.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain

1
  We used the MED in our analysis because it contained SSNs, NPIs, and Unique Physician Identification Number
(UPIN), all of which also appeared in the State agency’s provider database. The LEIE downloadable database did
not contain SSNs or NPls.



                                                       3
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency did not have adequate internal controls to prevent some Medicaid payments for
items and services furnished, ordered, or prescribed by an excluded individual or entity.
Specifically, for the period January 1, 2006, through December 31, 2008, the State agency made
$72,930 ($45,215 Federal share) in improper payments, which included:

   •   $51,808 ($32,070 Federal share) for drugs prescribed by excluded providers and

   •   $21,122 ($13,145 Federal share) for items and services provided by excluded providers.

The State agency’s policies and procedures did not make provisions to prevent improper
Medicaid payments for drugs prescribed by excluded providers because the State believed that
these claims were allowable. On the basis of this belief, the State agency did not put internal
controls in place to prevent drugs that were prescribed by excluded providers from being claimed
for Federal reimbursement.

In addition, during the period of this review the State agency did not have adequate written
policies and procedures to prevent improper Medicaid payments for items and services from
excluded providers. Subsequent to the period of our review, the State agency developed and
implemented written policies and procedures to identify and reject these claims and to prevent
improper payments.

IMPROPERLY CLAIMED DRUGS PRESCRIBED BY EXCLUDED PROVIDERS

Pursuant to 42 CFR § 1001.2: “Exclusion means that items and services furnished, ordered or
prescribed by a specified individual or entity will not be reimbursed under Medicare, Medicaid
and all other Federal health care programs until the individual or entity is reinstated by the OIG.”
(Italics in original.)

With respect to these reimbursements, or payments, 42 CFR § 1002.211 (a) states:

       [N]o payment may be made by the State agency for any item or service furnished
       on or after the effective date specified in the notice … on the prescription of a
       physician who is excluded when a person furnishing such item or service knew, or
       had reason to know, of the exclusion.

The State agency did not have internal controls in place to verify whether drug prescriptions
were written by excluded providers. As a result, the State agency made $51,808 ($32,070
Federal share) in improper payments for drugs prescribed by excluded providers for the period
January 1, 2006, through December 31, 2008. The State agency’s policies and procedures did
not make provisions to reject claims for drugs prescribed by excluded providers because the


                                                 4
State agency misinterpreted Medicaid regulations and contended that these claims were allowable
due to the fact that the payments were not being made to the excluded provider. On the basis of
this belief, the State agency did not put internal controls in place to prevent drugs that were
prescribed by excluded providers from being claimed for Federal reimbursement.

IMPROPERLY CLAIMED ITEMS AND SERVICES PROVIDED
BY EXCLUDED PROVIDERS

Pursuant to 42 CFR § 1001.2: “Exclusion means that items and services furnished, ordered or
prescribed by a specified individual or entity will not be reimbursed under Medicare, Medicaid
and all other Federal health care programs until the individual or entity is reinstated by the OIG.”
(Italics in original.)

With respect to these reimbursements, or payments, 42 CFR § 1002.211 (a) states:

       [N]o payment may be made by the State agency for any item or service furnished
       on or after the effective date specified in the notice by an excluded individual or
       entity… who is excluded when a person furnishing such item or service knew, or
       had reason to know, of the exclusion.

Although the State agency had internal controls in place to verify whether items and services
provided by excluded providers complied with Federal requirements, the State agency made
$21,122 ($13,145 Federal share) in improper payments for items and services furnished by
excluded providers for the period January 1, 2006, through December 31, 2008.

During the period of this review the State agency did not have adequate internal controls in the
form of written policies and procedures to enable it to reject claims for items and services from
excluded providers. The policies and procedures that were in place for the period of this review
did not specifically address the steps necessary to identify the claims that resulted in improper
payments. Consequently, personnel turnover within the State agency resulted in extended
periods of time in which the State agency employees charged with management and oversight of
the Medicaid program were unaware of, and thus did not implement, the exact procedures
necessary to appropriately identify and reject claims associated with excluded providers.

The State agency’s written procedures governing claims from excluded providers were initially
published on March 16, 2009 (after the period of our review), and did not address recoupment of
improper payments or the use of the MED or the LEIE to identify excluded providers. The State
agency published updated written procedures, which identified the specific steps necessary to
prevent improper payments resulting from claims submitted by or on behalf of excluded
providers, on April 23, 2010.




                                                 5
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $45,215 to the Federal Government for the improper Medicaid payments for items
       and services provided or prescribed by excluded individuals; and

   •   strengthen internal controls to prevent excluded providers from participating in the
       Medicaid program, specifically by developing and implementing policies and procedures
       to ensure that payments are not made for any items and services furnished, ordered, or
       prescribed by an excluded individual or entity.

STATE AGENCY COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency concurred with our recommendations
and described corrective actions that it had implemented or planned to implement. The State
agency said that, as part of its corrective action, it had identified additional claims totaling
$14,978 ($10,847 Federal share) that it had paid after our audit period for items and services
furnished, ordered, or prescribed by an excluded provider. The State agency added that it will
refund to the Federal Government both the $10,847 Federal share of these improper payments
identified by the State agency and the $45,215 identified in our first recommendation.

The State agency also stated that it plans to build new edits into its automated systems by
February 1, 2011, to deny claims in circumstances when the referring or prescribing provider is
excluded. Furthermore, the State agency said that it has notified or plans to notify beneficiaries
who are using an active excluded provider that prescriptions written by the excluded provider
would not be covered by Medicaid and that it was recommending to those beneficiaries that they
seek another provider. We did not verify the corrective actions.

The State Agency’s comments are included in their entirety as the Appendix.




                                                6
APPENDIX
                                                                                            Page 1 of 5


                APPENDIX: STATE AGENCY COMMENTS 





                                                       STATE OF IOWA 

TERRYE. BRANSTAO, GOVERNOR                                DEPARTMENT OF HUMAN SERVICES
KIM REYNOLDS, LT. GOVERNOR         JAN 252011                      CHARLES M. PALMER, DIRECTOR



Patrick J. Cogley
Regional Inspector General for Audit Services
Office of Inspector General
Region VII
601 East 12'h Street, Room 0429
Kansas City, MO 64106

RE: Review of Medicaid Excluded Providers in Iowa at the Iowa Department of Human
Services Report Number: A-07-10-03149

Dear Mr. Cogley:

Enclosed please find comments from the Iowa Department of Human Services (DHS) on the
December 29, 2010 draft report concerning Office of Inspector General's (OIG) Review of
Medicaid Excluded Providers in Iowa.

DHS appreCiates the opportunity to respond to the draft report and provide additional
comments to be included in the final report. Questions about the attached response can be
addressed to:

      Jody Lane-Molnari. Executive Officer 

      Division of Fiscal Management 

      Iowa Department of Human Services 

      Hoover State Office Building, 1st Floor SW 

      1305 E Walnut Street 

      Des Moines. IA 50319-0114 


      Email: jlanemo@dhs.state.ia.us 

      Phone: 515-281-6027 


Sincerely,




Charles M. Palmer 

Director 


~:  Dan Bittner, Audit Manager
Attachment




                      1305 E WALNUT STREET - DES MOINES, IA 50319-0114
                                                                                              Page 2 of 5




                                             -2­

                           Iowa Department of Human Services 

                             Response To OIG Draft Report: 


                     Review of Medicaid Excluded Providers in Iowa 

                      At the Iowa Department of Human Services 

                            Report Number: A-07-10-03149 



Background

In Iowa, the Department of Human Services administers the Medicaid program, in part by
developing and maintaining internal control. DHS is responsible for enrolling new providers
and maintaining provider control records for all Iowa Medicaid provider types. Billing
providers file Medicaid claims with DHS.

DIG's evaluation of the adequacy of the internal controls found that DHS did not have
adequate internal controls to prevent some Medicaid payments for items and services
furnished, ordered, or prescribed by an excluded individual or entity.

DHS policies and procedures did not make provisions to prevent improper Medicaid payments
for drugs prescribed by excluded providers because the State believed that these claims were
allowable. On the basis of this belief, DHS did not put internal controls in place to prevent
drugs that were prescribed by excluded providers from being claimed for Federal
reimbursement.

In addition, during the period of this review, DHS did not have adequate written policies and
procedures to prevent improper Medicaid payments for items and services from excluded
providers. Subsequent to the period of the review, DHS developed and implemented written
policies and procedures to identify and reject these claims and to prevent improper payments.

DIG Findings and Recommendation

DHS did not have adequate internal controls to prevent some Medicaid payments for items ,
and services furnished, ordered, or prescribed by an excluded individual or entity.

Specifically, for the period January 1, 2006, through December 31, 2008, DHS made $72,930
($45,215 Federal share) in improper payments. These improper payments included:

   • 	 $51,808 ($32,070 Federal share) for drugs prescribed by excluded providers and
   • 	 $21,122 ($13,145 Federal share) for items and services provided by excluded 

       providers. 


DIG recommends that DHS:

   • 	 Refund $45,215 to the Federal Government for the improper Medicaid payments for
       items and services provided or prescribed by excluded individuals; and
                                                                                               Page 3 of 5




                                               ·3·

    • 	 Strengthen internal controls to prevent excluded providers from participating in the
        Medicaid program, specifically by developing and implementing policies and.
        procedures to ensure that payments are not made for any items and services
        furnished, ordered, or prescribed by an excluded individual or entity.

DHS Response

DHS concurs with both of the recommendations as detailed below. Following are the
corrective actions taken and planned for the findings:

Claims Paid for Dates after 1213112008 and through 10/3112010:

Staff of the Iowa Medicaid Enterprise (IME)· matched Medicaid payments for claims paid after
12/3112008, and through 10/3112010, for items and services furnished, ordered, or prescribed
by an excluded individual or entity. For this period, DHS made $14,978 ($10,847 Federal
share) in improper payments relating to two excluded providers who referred Medicaid
members for treatment or who prescribed drugs. The federal share of these payments, plus
the federal share of the payments previously identified by the OIG ($45.215 federal share) will
be repaid by the Department.

One of the two excluded providers discontinued as a provider for the Medicaid program in
August 2009 and ha~ not been associated with any paid claims since August 31, 2009. The
other provider was actively referring and prescribing at the time of the data match. IME has
manually intervened and notified the pharmacies filling prescriptions for this provider that (he)
is excluded and that IME will no longer pay for prescriptions written by him. Medicaid
Members receiving the prescriptions were called by staff of thelME Member Services Unit
and told that IME would no longer pay for any prescriptions written by the excluded provider,
and recommended that they seek another provider for their ongoing pharmacy needs. For
those members that were unable to be contacted by phone, a letter was sent informing them
of such. (See attached.)



RX. Non Medicaid 

 Provider v1.do ... 


 A final match will be performed in February 2011 , after the systems changes are
implemented (discussed next), and the federal share of any matches will also be repaid.

Claims Payment Systems Changes

The Medicaid Management Information System (MMIS) and the Pharmacy Point-of"Sale
(POS) system adjudicate Medicaid claims. Currently, both systems deny claims when the
provider furnishing the item or service is excluded. (The provider record reflects an
exclusionary code when a provider is excluded.)
                                                                                              Page 4 of 5




                                              -4­


The referring (ordering) or prescribing provider information (provider identification number) is
captured in the claims processing systems. However, during the adjudication process, there
are no edits associated with these fields. The IME has initiated programming changes to
deny claims when the referring (ordering) or prescribing provider is excluded. These changes
will be completed and in production by February 1, 2011.
                                                                                                             Page 5 of 5




                                                                     STATE OF IOWA 

CHESTERJ.CULVER,GOVERNOR                                                 DEPARTMENT OF HUMAN SERVICES
PATTY JUDGE, LT. GOVERNOR                                                        CHARLES J. KROGMEIER. DIRECTOR


pp\t~
First_Name LasCName
Address_1
Address 2
City, State Zip_Code




Our records indicate that you are currently being prescribed medications by            .
Provider_Name, who is not enrolled with the Iowa Medicaid program. You will no longer be
able to have your prescriptions written by this doctor and have Iowa Medicaid pay for them.
Please make an appointment with a doctor that is enrolled with Iowa Medicaid. Ask your
new doctor to prescribe your current medications so that Iowa Medicaid may continue
making payment on your prescriptions.

If you have any questions, please contact Iowa Medicaid Member Services at 1-800-338­
8366 or locally in the Des Moines area at 515-256-4606.


Sincerely,


Iowa Medicaid Member Services




                              Call or write the Member Services Call Center at:
        PO Box 36510, Des Moines, Iowa 50315 - (800) 338-8366; (515) 256-4606 Oocalln the Des Moines area)
          Please visit our website at www.ime.state.ia.us or e-mail us at IMEMemberServjces@dhsstate.ja.u5
             IOWA MEDICAID ENTERPRISE - 100 ARMY POST ROAD - DES MOINES, IA 50315
